      DEPARTMENT OF HEALTH & HUMAN SERVICES                                Office of Inspector General

                                                                           Washington, D.C. 20201




March 9, 2010

TO:             Francis S. Collins, M.D., Ph.D.
                Director
                National Institutes of Health


FROM:           /Lori S. Pilcher/
                Assistant Inspector General for Grants, Internal Activities,
                  and Information Technology Audits


SUBJECT:        National Institute of Environmental Health Sciences: Internal Control Review of
                the Process for Awarding American Recovery and Reinvestment Act Funds
                (A-04-09-01065)


The attached final report provides the results of our review of internal controls over the process
for awarding American Recovery and Reinvestment Act of 2009, P.L. No. 111-5 (Recovery
Act), funds at the National Institute of Environmental Health Sciences. This review was part of
the Office of Inspector General’s assessment of whether the Department of Health & Human
Services is using Recovery Act funds in accordance with legal and administrative requirements
and is meeting the accountability objectives defined by the Office of Management and Budget.

The Recovery Act was signed into law by President Obama on February 17, 2009. The
Recovery Act includes measures to modernize our nation’s infrastructure, enhance energy
independence, expand educational opportunities, preserve and improve affordable health care,
provide tax relief, and protect those in greatest need.

At the President’s direction, Federal agencies are taking critical steps to carry out the Recovery
Act effectively. All Federal agencies and departments receiving Recovery Act funds must
maintain strong internal controls and implement oversight mechanisms and other approaches to
meet the accountability objectives of the Recovery Act.

Our objective was to assess the internal controls NIEHS has in place over the grant-award
process used to award Recovery Act funds and to determine whether the controls have been
suitably designed.

The internal controls for awarding Recovery Act funds to grantees, as described by management,
are suitably designed to provide reasonable assurance that the specified internal control
objectives would be achieved if the described internal controls were complied with satisfactorily
and applied as designed. However, we did not perform procedures to determine the operating
effectiveness of these internal controls. Accordingly, we express no opinion on the operating
Page 2 – Francis S. Collins, M.D., Ph.D.

effectiveness of any aspects of NIEHS’s controls for awarding Recovery Act funds, individually
or in the aggregate.

Pursuant to the Freedom of Information Act, 5 U.S.C. § 552, Office of Inspector General reports
generally are made available to the public to the extent that information in the report is not
subject to exemptions in the Act. Accordingly, the final report will be posted on the Internet at
http://oig.hhs.gov.

If you have any questions or comments about this report, please do not hesitate to contact me at
(202) 619-1175 or through email at Lori.Pilcher@oig.hhs.gov. Please refer to report number
A-04-09-01065 in all correspondence.


Attachment
Department of Health and Human Services
             OFFICE OF
        INSPECTOR GENERAL



   NATIONAL INSTITUTE OF
  ENVIRONMENTAL HEALTH
SCIENCES: INTERNAL CONTROL
 REVIEW OF THE PROCESS FOR
    AWARDING AMERICAN
RECOVERY AND REINVESTMENT
        ACT FUNDS




                    Daniel R. Levinson
                     Inspector General

                       March 2010
                      A-04-09-01065
                    Office of Inspector General
                                      http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services (HHS)
programs, as well as the health and welfare of beneficiaries served by those programs. This
statutory mission is carried out through a nationwide network of audits, investigations, and
inspections conducted by the following operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits examine
the performance of HHS programs and/or its grantees and contractors in carrying out their
respective responsibilities and are intended to provide independent assessments of HHS
programs and operations. These assessments help reduce waste, abuse, and mismanagement and
promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS,
Congress, and the public with timely, useful, and reliable information on significant issues.
These evaluations focus on preventing fraud, waste, or abuse and promoting economy,
efficiency, and effectiveness of departmental programs. To promote impact, OEI reports also
present practical recommendations for improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of
fraud and misconduct related to HHS programs, operations, and beneficiaries. With
investigators working in all 50 States and the District of Columbia, OI utilizes its resources by
actively coordinating with the Department of Justice and other Federal, State, and local law
enforcement authorities. The investigative efforts of OI often lead to criminal convictions,
administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG,
rendering advice and opinions on HHS programs and operations and providing all legal support
for OIG’s internal operations. OCIG represents OIG in all civil and administrative fraud and
abuse cases involving HHS programs, including False Claims Act, program exclusion, and civil
monetary penalty cases. In connection with these cases, OCIG also negotiates and monitors
corporate integrity agreements. OCIG renders advisory opinions, issues compliance program
guidance, publishes fraud alerts, and provides other guidance to the health care industry
concerning the anti-kickback statute and other OIG enforcement authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at http://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                   EXECUTIVE SUMMARY

BACKGROUND

The American Recovery and Reinvestment Act of 2009, P.L. No. 111-5 (Recovery Act), was
signed into law by President Obama on February 17, 2009. The Recovery Act includes measures
to modernize our nation's infrastructure, enhance energy independence, expand educational
opportunities, preserve and improve affordable health care, provide tax relief, and protect those
in greatest need.

Every taxpayer dollar spent on the economic recovery must be subject to unprecedented levels of
transparency and accountability. The five crucial objectives for Department of Health and
Human Services and its agencies are:

      Recovery Act funds are awarded and distributed in a prompt, fair, and reasonable
       manner.

      Recovery Act funds are transparent to the public, and the public benefits of these funds
       are reported clearly, accurately, and in a timely manner.

      Recovery Act funds are used for authorized purposes and every step is taken to prevent
       instances of fraud, error, and abuse.

      Projects funded under the Recovery Act avoid unnecessary delays and cost overruns.

      Projects funded under the Recovery Act ensure program goals are achieved, including
       specific program outcomes and improved results on broader economic indicators.

At the President’s direction, Federal agencies are taking critical steps to carry out the Recovery
Act effectively. An Office of Management and Budget memorandum (April 3, 2009) updated
initial implementing Recovery Act guidance (February 18, 2009) and required that all Federal
agencies and departments receiving Recovery Act funds must maintain strong internal controls
implement appropriate oversight mechanisms and other approaches to meet the accountability
objectives of the Recovery Act.

Recovery Act Funding for National Institute of Environmental Health Sciences Research

The Recovery Act provides $8.2 billion to the National Institutes of Health (NIH), Office of the
Director, to help stimulate the economy through the support and advancement of scientific
research. Of the $8.2 billion, $7.4 billion is to be allocated proportionally to the NIH Institutes
and Centers and $800 million to the Office of the Director. In addition, the Recovery Act
provides $400 million for comparative effectiveness research and $300 million for shared
instrumentation. The Recovery Act funds will remain available for obligation until
September 30, 2010. The National Institute of Environmental Health Sciences (NIEHS) is to
receive approximately $168 million as its proportional share, as well as a portion of the
$800 million from the Office of Director for funding extramural research.

                                                  i
The NIH Recovery Act Web site indicated that while NIH has broad flexibility to invest in many
types of grant programs, it will follow the spirit of the Recovery Act by funding projects that will
stimulate the economy, will create or retain jobs, and have the potential for making scientific
progress within 2 years. NIEHS expects to:

      select recently peer-reviewed, highly meritorious research grant applications that can be
       accomplished in 2 years or less;

      fund new research applications;

      accelerate the tempo of ongoing science through targeted supplements to current grants;

      support new types of activities, such as the NIH Challenge Grant program, that meet the
       goals of the Recovery Act; and

      use other funding mechanisms as appropriate.

Research funds will be used to award grants and cooperative agreements to research entities
including nonprofit and for-profit organizations, universities, hospitals, research foundations,
governments and their agencies, and individuals.

OBJECTIVE

Our objective was to assess the internal controls NIEHS has in place over the grant-award
process used to award Recovery Act funds and to determine whether the controls have been
suitably designed.

RESULTS OF REVIEW

The internal controls over the grant-award process used to award Recovery Act funds, as
described by NIEHS and NIH management, are suitably designed to provide reasonable
assurance that the specified internal control objectives would be achieved if the described
internal controls were complied with satisfactorily and applied as designed. However, we did
not perform procedures to determine the operating effectiveness of these internal controls.
Accordingly, we express no opinion on the operating effectiveness of any aspect of NIEHS’s
internal controls over the grant-award process used to award Recovery Act funds, individually or
in the aggregate.

This report is intended to provide a sufficient understanding of NIEHS’s grant process for
awarding Recovery Act funds to grantees as it pertains to internal control objectives in the
following internal control areas: authorization and approval; accuracy, completeness, and
validity; physical safeguards and security; error handling; and segregation of duties.




                                                 ii
                                                  TABLE OF CONTENTS
                                                                                                                               Page

INTRODUCTION.................................................................................................................1

          BACKGROUND ........................................................................................................1
              Recovery Act Requirements ...........................................................................1
              National Institutes of Health and the National Institute of
               Environmental Health Sciences ...................................................................1
              National Institutes of Health and the National Institute of
               Environmental Health Sciences Research ...................................................2

          OBJECTIVE, SCOPE, AND METHODOLOGY ......................................................3
               Objective .........................................................................................................3
               Scope...............................................................................................................3
               Methodology ...................................................................................................3

RESULTS OF REVIEW ......................................................................................................4

          AUTHORIZATION AND APPROVAL....................................................................5
              Internal Control Objective 1: Internal Controls Provide Reasonable
                Assurance That Grant Eligibility Requirements Are in Accordance
                With Laws, Regulations, Recovery Act Guidance, and Agency Policy......5
              Internal Control Objective 2: Internal Controls Provide Reasonable
                Assurance That Information and Methods Used To Publicize the
                Program Are in Accordance With Laws, Regulations, Recovery Act
                Guidance, and Agency Policy......................................................................5
              Internal Control Objective 3: Internal Controls Provide Reasonable
                Assurance That Grant Application Processing Procedures Are
                Established and in Accordance With Laws, Regulations, Recovery
                Act Guidance, and Agency Policy ...............................................................6
              Internal Control Objective 4: Internal Controls Provide Reasonable
                Assurance That Grantee Procedures for Control, Use, and Reporting
                of Grant-Funded Operations Are in Accordance With Laws, Regulations,
                Recovery Act Guidance, and Agency Policy...............................................7
              Internal Control Objective 5: Internal Controls Provide Reasonable
                Assurance That Grant Requirements Are Noted and in Place ....................7

          ACCURACY, COMPLETENESS AND VALIDITY................................................8
              Internal Control Objective 1: Internal Controls Provide Reasonable
                Assurance That Program Objectives Are Achieved in an Economical
                and Efficient Manner ...................................................................................8
              Internal Control Objective 2: Internal Controls Provide Reasonable
                Assurance That Procedures Used To Process and Approve Grant
                Applications and Related Transactions Are Efficient..................................8


                                                                    iii
         Internal Control Objective 3: Internal Controls Provide Reasonable
           Assurance That the Agency Has Mechanisms in Place to Timely Award
           Grant and Contract Funds ............................................................................8
         Internal Control Objective 4: Internal Controls Provide Reasonable
           Assurance That Only Those Grant Requests That Meet the Eligibility
           Requirements Should Be Approved.............................................................9
         Internal Control Objective 5: Internal Controls Provide Reasonable
           Assurance That Grantee Records Are Periodically Substantiated and
           Evaluated......................................................................................................9

PHYSICAL SAFEGUARDS AND SECURITY........................................................9
     Internal Control Objective 1: Internal Controls Provide Reasonable
       Assurance That Access to Grant and Accounting Records, Critical Forms,
       Processing Areas, and Processing Procedures Are Permitted Only in
       Accordance With Policy ..............................................................................9
     Internal Control Objective 2: Internal Controls Provide Reasonable
       Assurance That Valuable Assets and Information Are Safeguarded
       From Unauthorized Access or Use ............................................................10

ERROR HANDLING ...............................................................................................10
    Internal Control Objective 1: Internal Controls Provide Reasonable
      Assurance That the National Institutes of Health Accurately
      and Promptly Classifies, Summarizes, and Reports Adjustments
      to Grant Application Information and Records .........................................10

SEGREGATION OF DUTIES .................................................................................10
     Internal Control Objective 1: Internal Controls Provide Reasonable
       Assurance That Opportunities for an Individual To Both Cause and
       Conceal Errors Are Reduced .....................................................................10




                                                         iv
                                              INTRODUCTION

BACKGROUND

Recovery Act Requirements

The American Recovery and Reinvestment Act of 2009, P.L. No. 111-5 (Recovery Act), was
signed into law by President Obama on February 17, 2009. The Recovery Act includes measures
to modernize our nation's infrastructure, enhance energy independence, expand educational
opportunities, preserve and improve affordable health care, provide tax relief, and protect those
in greatest need.

According to the Department of Health and Human Services (HHS) Recovery Act Web site, 1
every taxpayer dollar spent on our economic recovery must be subject to unprecedented levels of
transparency and accountability. The five crucial objectives for HHS and its agencies are:

       Recovery Act funds are awarded and distributed in a prompt, fair, and reasonable
        manner.

       Recovery Act funds are transparent to the public, and the public benefits of these funds
        are reported clearly, accurately, and in a timely manner.

       Recovery Act funds are used for authorized purposes and every step is taken to prevent
        instances of fraud, error, and abuse.

       Projects funded under the Recovery Act avoid unnecessary delays and cost overruns.

       Projects funded under the Recovery Act ensure program goals are achieved, including
        specific program outcomes and improved results on broader economic indicators.

At the President’s direction, Federal agencies are taking critical steps to carry out the Recovery
Act effectively. An Office of Management and Budget (OMB) memorandum (April 3, 2009)
updated initial implementing Recovery Act guidance (February 18, 2009) and requires that all
Federal agencies and departments receiving Recovery Act funds must maintain strong internal
controls and implement appropriate oversight mechanisms and other approaches to meet the
accountability objectives of the Recovery Act.

National Institutes of Health and National Institute of Environmental Health Sciences

The National Institutes of Health (NIH) is the steward of medical and behavioral research for the
nation. Its mission is science in pursuit of fundamental knowledge about the nature and behavior
of living systems and the application of that knowledge to extend healthy life and reduce the
burdens of illness and disability.

1Available   online at http://www.hhs.gov/recovery/reports/index.html. Accessed on September 5, 2009.



                                                         1
The National Institute of Environmental Health Sciences (NIEHS) is one of the 27 Institutes and
Centers included in the NIH organization and is located in Research Triangle Park, North
Carolina. NIEHS’s mission is to reduce the burden of human illness and disability by
understanding how the environment influences the development and progression of human
disease.

NIEHS grants and cooperative agreements are awarded as discretionary grants. NIEHS has the
authority through NIH to determine the recipient of the grant and/or cooperative agreement and
the amount awarded. NIH programs are legislatively authorized by Congress, which also issues
legislative mandates regarding the use of congressional appropriations and statutory provisions
that limit the use of funds on NIH programs. The head of each agency is required by law to
prescribe by regulation a system of administrative controls to ensure that obligations and
expenditures are limited to the amount of the appropriation. The system of controls is also
designed to allow the agency head to fix responsibility for the creation of any obligation or the
making of any expenditure in excess of an appropriation.

National Institutes of Health and National Institute of
Environmental Health Sciences Research

The Recovery Act provides $8.2 billion to the NIH Office of the Director to help stimulate the
economy through the support and advancement of scientific research. Of the $8.2 billion,
$7.4 billion is to be allocated proportionally to the NIH Institutes and Centers and $800 million
to the Office of the Director. In addition, the Recovery Act provides $400 million for
comparative effectiveness research and $300 million for shared instrumentation. The Recovery
Act funds will remain available for obligation until September 30, 2010. NIEHS is to receive
approximately $168 million as its proportional share, as well as a portion of the $800 million
from the Office of Director for funding extramural research.

The NIH Recovery Act Web site stated that while the NIH has broad flexibility to invest in many
types of grant programs, it will follow the spirit of the Recovery Act by funding projects that will
stimulate the economy, will create or retain jobs, and have the potential for making scientific
progress within 2 years. NIEHS expects to:

      select recently peer-reviewed, highly meritorious research grant applications that can be
       accomplished in 2 years or less;

      fund new research applications;

      accelerate the tempo of ongoing science through targeted supplements to current grants;




                                               2
       support new types of activities, such as the NIH Challenge Grant program, 2 that meet the
        goals of the Recovery Act; and

       use other funding mechanisms as appropriate.

Research funds will be used to award grants and cooperative agreements to research entities
including nonprofit and for-profit organizations, universities, hospitals, research foundations,
governments and their agencies, and individuals.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to assess the internal controls NIEHS has in place over the grant-award
process used to award Recovery Act funds and to determine whether the controls have been
suitably designed.

Scope

We assessed NIEHS’s internal controls, and NIH’s internal controls when appropriate, over the
grant-award process used to award Recovery Act funds for scientific research. Our assessment
was limited to determining whether existing controls adequately achieved the internal control
objectives for: (1) authorization; (2) accuracy, completeness, and validity; (3) physical
safeguards and security; (4) error handling; and (5) segregation of duties. We did not perform
procedures to determine the operating effectiveness of these controls. Accordingly, we express
no opinion on the operating effectiveness of any aspects of NIEHS’s internal controls over the
grant-award process used to award Recovery Act funds, individually or in the aggregate.

We performed fieldwork at NIEHS offices in Research Triangle Park, North Carolina, from May
through September 2009.

Methodology

The internal control environment represents the collective effect of a number of elements in
establishing, enhancing, or mitigating the effectiveness of specific policies and procedures. To
gain an understanding of NIEHS’s internal control environment, we:

       reviewed relevant Federal laws and regulations, including Recovery Act guidance that
        NIEHS must follow for awarding grants;




2
 Challenge grants address specific scientific and health research challenges, defined by NIH, in biomedical and
behavioral research that will benefit from significant 2-year jumpstart funds.




                                                       3
      reviewed NIH and NIEHS’s organizational structure, including segregations of functional
       responsibilities and policy statements;

      interviewed NIEHS management and other personnel responsible for developing and
       applying internal controls; and

      reviewed the grant-award process for four grants funded with Recovery Act funds.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.

                                    RESULTS OF REVIEW

The internal controls over the grant-award process used to award Recovery Act funds, as
described by NIEHS and NIH management, are suitably designed to provide reasonable
assurance that the specified internal control objectives would be achieved if the described
internal controls were complied with satisfactorily and applied as designed.

This report provides a sufficient understanding of NIEHS’s grant process for awarding Recovery
Act funds to grantees as it pertains to internal control objectives in the following internal control
areas:

      authorization and approval: transactions and other significant events should be authorized
       and executed only by persons acting within the scope of their authority;

      accuracy, completeness, and validity: all transactions should be consistent with the
       originating data and fairly represent the economic events that actually occurred, and no
       valid transactions should be omitted;

      physical safeguards and security: physical controls need to be established to secure and
       safeguard vulnerable assets and to limit access to resources and records to authorized
       individuals;

      error handling: errors detected at any stage of processing should receive prompt
       corrective action and be reported to the appropriate level of management; and

      segregation of duties: key duties and responsibilities need to be divided or segregated
       among different people to reduce the risk of error or fraud.




                                                4
AUTHORIZATION AND APPROVAL

Internal Control Objective 1: Internal Controls Provide Reasonable Assurance That
Grant Eligibility Requirements Are in Accordance With Laws, Regulations, Recovery Act
Guidance, and Agency Policy

        NIEHS’s policy is to look for grant proposals of high scientific caliber that are relevant to
         public health needs and are within NIEHS’s priorities. Each type of NIEHS grant
         program has its own set of eligibility requirements. Applicants can find eligibility
         information in section III of each funding opportunity announcement (FOA). Eligibility
         requirements are primarily based on the experience of the applicant.

        NIH policy is intended to ensure that grant applications are evaluated on the basis of a
         process that is fair, equitable, timely, and bias-free. The NIH dual peer review system 3 is
         mandated by statute (section 492 of the Public Health Service Act) and Federal
         regulations (42 CFR part 52h).

        NIH policy is to include the NIH Grants Policy Statement in all Notice of Awards as a
         term and condition of the award. The NIH Grants Policy Statement provides that NIH
         grant awards are for the reimbursement of actual and allowable costs incurred, and are
         subject to Federal cost principles. The cost principles are set forth in OMB Circulars
         A-21, A-87, and A-122; 45 CFR § 74, appendix E; and 48 CFR § 31.2 and incorporated
         by reference in 45 CFR §§ 74.27 and 92.22. (The notice of award terms and conditions
         incorporate 45 CFR parts 74 and 92, as applicable.) The cost principles address four tests
         to determine the allowability of costs: reasonableness, allocability, consistency, and
         conformance. The NIH Grants Policy Statement also includes administrative and other
         remedies the Federal Government may use if a grantee does not comply with
         requirements.

Internal Control Objective 2: Internal Controls Provide Reasonable Assurance That
Information and Methods Used To Publicize the Program Are in Accordance With Laws,
Regulations, Recovery Act Guidance, and Agency Policy

        OMB implementation guidance for the Recovery Act requires Federal agencies to
         provide information on the funding notifications made for all award types on
         Recovery.gov with a link to the agency’s Web site. The funding notifications stem from
         public announcements on the amount of funds available to entities outside of the Federal
         Government. The notifications include funds available immediately through formula or
         block grants, through the solicitation of applications or proposals for award in the future,
         or through any other public notification. Grants, contracts, loans, loan guarantees,



3
 The dual peer review system used by NIH has two levels of review. The first level, the initial peer review, provides
a judgment of scientific merit. The second level assesses the quality of the initial peer review, sets program
priorities, and makes funding recommendations.



                                                       5
        cooperative agreements, and other forms of assistance are all subject to this reporting
        requirement.

       NIEHS posts the grant eligibility requirements and research objectives on its own Web
        site and Grants.gov using an FOA. NIEHS’s Web site is linked to Recovery.gov. FOAs
        are a new requirement and result in the submission of grant applications through
        Grants.gov. FOAs are requests for applications and are issued to invite grant applications
        in a well-defined scientific area and stimulate activity in the NIEHS’s programmatic
        priority areas.

       NIH policy is to make new grantees aware of financial management system requirements
        through the Welcome Wagon Letter posted on the NIH Office of Extramural Research
        Web site and as part of the award negotiation, if applicable. NIEHS posts a link entitled
        “Information for New Grantees” on its Web site, which transfers users to the NIH
        Welcome Wagon Letter located on the NIH Web site. The Welcome Wagon Letter
        informs grantees that they must follow the procedures found in laws, regulations,
        policies, and Facilities & Administrative rate negotiations. Facilities & Administrative
        rate negotiation information is provided on the NIH Office of Extramural Research Web
        site, and NIEHS’s Web site provides a link to that information as well.

       The NIH Office of Extramural Research Web site provides a multitude of resource
        materials that educate grantees about the cost principles and other applicable regulations
        and policies governing the administration of grants. NIEHS posts a link to this Web site
        entitled “Getting Started at NIH.”

Internal Control Objective 3: Internal Controls Provide Reasonable Assurance That
Grant Application Processing Procedures Are Established and in Accordance With Laws,
Regulations, Recovery Act Guidance, and Agency Policy

       NIH policy is to evaluate submitted grant applications in a fair, equitable, timely, and
        bias-free manner. The NIH dual peer review system is mandated by statute (section 492
        of the Public Health Service Act) and Federal regulations (42 CFR part 52h).

       As required, applications are processed through two levels of review and assigned a
        numerical ranking. The initial peer review 4 assesses each application’s scientific and
        technical merit. Using established criteria, the initial peer review group prepares an
        evaluation and gives the application a score (or ranking). The second level of review is
        performed by the National Environmental Health Sciences Council (Council). The
        Council approves grant applications that meet the NIEHS’s goals, ranks the applications
        from the most meritorious to the least, and recommends a funding amount. The results of


4
Depending on the grant assignment, initial peer review meetings are administered by either the Center for Scientific
Review or by NIEHS.




                                                       6
        the initial peer review and the council are recorded in the NIH Information for
        Management, Planning, Analysis, and Coordination (IMPAC) II system. 5

       The NIH Grants Cycle Memorandum states that before awarding a grant, Grants
        Management staff will use a checklist to ensure that administrative requirements have
        been addressed. The Grants Management staff will also determine whether the grant was
        funded in rank order. For all new and competing continuation awards, Congress must be
        alerted at least 72 hours before the grant is awarded. The Grants Management Officer, an
        NIEHS employee, approves the Notice of Grant Award, which is sent to the grantee.

Internal Control Objective 4: Internal Controls Provide Reasonable Assurance That
Grantee Procedures for Control, Use, and Reporting of Grant-Funded Operations Are in
Accordance With Laws, Regulations, Recovery Act Guidance, and Agency Policy

       NIEHS requires grantees to meet the standards and requirements for financial
        management systems set forth or referenced in 45 CFR §§ 74.21 or 92.20, as applicable.
        Requirements for grantees’ financial and administrative systems are included in the NIH
        Grants Policy Statement. NIEHS grant-award terms and conditions are included in
        45 CFR parts 74 and 92, as well as in the NIH Grants Policy Statement by reference.

       NIEHS may impose corrective actions and/or include special conditions on awards or
        may suspend, terminate, or withhold support.

Internal Control Objective 5: Internal Controls Provide Reasonable Assurance That
Grant Requirements Are Noted and in Place

       The Authorized Organization Representative’s signature on the grant application is to
        ensure that the applicant organization will be accountable both for the appropriate use of
        funds awarded and for the performance of the grant-supported project or other activities
        resulting from the application. The Authorized Organization Representative is also
        responsible to NIEHS for ensuring that the organization complies with the terms and
        conditions of individual awards and organizationwide requirements, such as those
        concerning financial management and property management.

       A grantee acknowledges and accepts an NIEHS award and its associated terms and
        conditions by drawing down or requesting funds made by the Notice of Award. Once the
        award is accepted by the grantee, the terms and conditions of the Notice of Award are
        binding.




5
 IMPAC is a computer database system developed and maintained by the Office of Extramural Research for
information concerning extramural programs. IMPAC II is the successor to NIH’s original IMPAC information
management system.



                                                   7
ACCURACY, COMPLETENESS, AND VALIDITY

Internal Control Objective 1: Internal Controls Provide Reasonable Assurance That
Program Objectives Are Achieved in an Economical and Efficient Manner

        The Council reviews applications not only for appropriate initial peer review
         recommendations but also for relevance to the NIEHS’s programs, priorities, and
         funding. The Council may concur with the results of the initial peer review and approve
         the grant award or return the grant application to the initial peer review group for further
         review.

Internal Control Objective 2: Internal Controls Provide Reasonable Assurance That
Procedures Used To Process and Approve Grant Applications and Related Transactions
Are Efficient

        NIH is replacing paper grant applications with electronic applications and has begun the
         transition for requiring electronic submission of grant applications via the online portal of
         Grants.gov.

        NIH requires that submitted applications undergo checks at Grants.gov and at NIH. The
         Grants.gov checks ensure that no viruses are attached to the application and the Date
         Universal Numbering System (DUNS) number is correct. 6 At NIH, the application is
         checked against an application evaluation checklist. If there are no errors, NIH
         assembles the entire application in the NIH eRA Commons.

        NIH provides the submitting organization’s business official (the signing official) and the
         principal investigator 2 days to view the application before it goes to the Division of
         Receipt and Referral for processing.

Internal Control Objective 3: Internal Controls Provide Reasonable Assurance That the
Agency Has Mechanisms in Place To Timely Award Grant and Contract Funds

        From the Recovery Act funds, NIEHS will try to fund grant applications that were
         approved in fiscal year 2008 but not funded. Recovery Act grants must be awarded in
         short timeframes and obligated within 2 years.




6
 The DUNS is a unique nine-digit number assigned by Dun and Bradstreet Information Services. It is the universal
standard for identifying and keeping track of more than 92 million businesses worldwide. Grants.gov requires a
DUNS number for registration. For applicants, the DUNS number in the application must match the DUNS number
in the Institutional Profile in the Electronic Research Administration (eRA) Commons. The eRA Commons is a
secure meeting place on the Web where research organizations and grantees electronically receive and transmit
information about the administration of biomedical and behavioral research grants. The eRA Commons allows
applicants to access the status of their applications; grantees can access the status of their awards, submit reports,
and make requests electronically.



                                                        8
Internal Control Objective 4: Internal Controls Provide Reasonable Assurance That Only
Those Grant Requests That Meet the Eligibility Requirements Are Approved

      NIH policy states that organizations and individuals that are suspended, debarred, or
       voluntarily excluded from eligibility cannot receive NIH grants or be paid from NIH
       grant funds. It specifies that charges made to NIH grants for such individuals are
       unallowable. It also requires that grants management staff verify whether the applicant,
       proposed Principal Investigator, or other key personnel are debarred or suspended from
       participation in Federal assistance programs before issuing a grant.

      NIH policy requires the Grants Management Officer to certify that all applicable
       requirements for an independent, competitive review have been carried out before
       funding the grant application.

      NIH grants policy states that, before awarding the grant, the Grants Management Office
       should review the application for indication of inadequate administrative systems and to
       ensure that applications have been approved. When necessary, particularly for new
       organizations, grants management staff should request and review grantee administrative
       policies and financial statements.

Internal Control Objective 5: Internal Controls Provide Reasonable Assurance That
Grantee Records Are Periodically Substantiated and Evaluated

      Pursuant to OMB Circular A-133 and 45 CFR § 74.26, grantees that expend more than
       $500,000 in a fiscal year are required to obtain audits of their organizations’ operations
       annually from private accounting firms.

      NIH Grants Policy Statement says that Grants Management Officers and Program
       Officials will use reports, correspondence from the grantee, site visits, and other available
       information to monitor costs and performance results and to identify areas where
       technical assistance or enforcement action may be necessary.

PHYSICAL SAFEGUARDS AND SECURITY

Internal Control Objective 1: Internal Controls Provide Reasonable Assurance That
Access to Grant and Accounting Records, Critical Forms, Processing Areas, and
Processing Procedures Are Permitted Only in Accordance With Policy

      NIH maintains an agencywide security program to safeguard and secure access to
       records. The “NIH Fiscal Year 2008 Improper Payments Information Act Risk
       Assessment” (risk assessment) noted that security policies were updated to align with
       new OMB, National Institute of Standards and Technology, and HHS policies and
       guidance. The risk assessment also noted that the Enterprise Master Information
       Technology Security Plan, which implements relevant Federal laws, regulations, and
       policies, was recently revised. Finally, the risk assessment noted the revision of the
       information technology security language for contracts and acquisitions compliance with

                                               9
       the Federal Information Security Management Act (FISMA) and contractor security
       oversight.

Internal Control Objective 2: Internal Controls Provide Reasonable Assurance That
Valuable Assets and Information Are Safeguarded From Unauthorized Access or Use

      NIH officials told us that NIH has actively addressed security issues by providing
       frequent training to staff. NIH has worked with HHS to develop role-based training for
       personnel with significant security responsibilities to comply with OMB requirements.
       NIH also recently updated its security awareness course, which is an annual requirement
       for all personnel who use information systems.

      NIH has a number of internal controls in place to ensure the safeguarding and security of
       data. NIH maintains an offsite server to provide backup and recovery of data. It
       implemented an automated Web-based application called NIH Certification and
       Accreditation Tool that it uses for managing and tracking the inventory of information
       systems. The certification and accreditation is to be performed for 100 percent of FISMA
       systems, including systems that are critical infrastructure. Certification and accreditation
       ensures that safeguards are implemented effectively and commensurate with risks. NIH
       also implemented the HHS Security & Privacy Online Reporting Tool for tracking
       FISMA information.

ERROR HANDLING

Internal Control Objective 1: Internal Controls Provide Reasonable Assurance That the
National Institutes of Health Accurately and Promptly Classifies, Summarizes, and Reports
Adjustments to Grant Application Information and Records

      NIH allows applicants the opportunity to correct errors identified during the application
       process and submit the corrected information through Grants.gov within a specified
       timeframe.

      When NIH identifies an error, its policy is for the application process to immediately
       stop. The applicant is either notified of the error or given a warning. A warning alerts
       the applicant to the less-than-ideal condition. Correcting the error allows an application
       to proceed.

SEGREGATION OF DUTIES

Internal Control Objective 1: Internal Controls Provide Reasonable Assurance That
Opportunities for an Individual To Both Cause and Conceal Errors Are Reduced

      Scientific Review Administrators provide both the scientific review experience and
       scientific expertise for the competitive review process.



                                              10
   Grants Management Officers serve as the receipt and distribution point for prior approval
    requests, progress reports, and other reports required by the terms and conditions of the
    Notice of Grant Award.

   Program Officials establish or participate in the establishment of goals for new programs
    and plans of action for implementation.

   Program Officials evaluate the submissions for appropriateness to solicitation topics, and
    the Grants Management Officer determines compliance with policy, regulations, and
    guidelines.




                                          11
